                        National Archives and Records Administration
                                                                                           8601 Adelphi Road
                                                                          College Park, Maryland 20740-6001

Date 	      January 15,2009
Reply to
Attn of 	   Office ofInspector General (OIG)

Subject 	   Management Letter No. 09-08, Award Fee Program for the Electronic Records Archives
            Development Contract

To: 	       Adrienne Thomas, Acting Archivist of the United States (N)

            The purpose of this management letter is to inform you that the Electronic Records Archives
            (ERA) development contract award fee program is not functioning in an efficient and effective
            manner, i.e., the award fee plan for determining the amount of award fees to be paid to the
            contractor is not being adhered to and was significantly changed without following proper
            modification procedures. Further, the award fees paid to the contractor did not comply with the
            process identified.

            The purpose of an award fee is to reward good contractor performance and conversely address
            deficiencies in a constructive manner so as to effect positive change. The National Archives and
            Records Administration (NARA) did not act in accordance with a properly accepted award fee
            plan when determining award fees to be paid the ERA contractor, resulting in a lack of
            accountability and transparency over the distribution of government funds to the contractor; and
            in this particular case, it both changed the incentives provided to the contractor and provided it
            with an inappropriate windfall.

            The ERA is NARA's most important and technologically advanced information technology
            program. Representing hundreds of millions of tax-payer dollars, the ERA is NARA's solution to
            the exponentially expanding problems, and opportunities, associated with electronic records.
            Among other functions, plans are for the ERA to allow NARA to store and to provide appropriate
            access to any type of computer file, indefinitely, and without regard to the software that originally
            created the file. For this seminal program, the agency awarded a multi-year, multi-increment,
            cost-plus-award-fee (CPAF) contract, originally valued at over $317 million, to the Lockheed
            Martin Corporation.

            A CPAF contract is designed to motivate the contractor to provide an excellent work product by
            limiting its compensation to actual incurred costs, and then adding a bonus based on the
            government's subjective evaluation of contractor performance. For the ERA contract, NARA
            officials accepted a written Award Fee Plan (AFP) which detailed how the award fee program
            would be run, and how the award fees would be determined for Increment 1. Increment 1 of the
            ERA contract covered a two-year period ending with achieving an Initial Operating Capability
            (IOC) for the ERA. However, NARA ERA program officials neither properly used this plan
when detennining the Award Fees paid to LM, nor did they appropriately modify the plan prior to
deviating from the written instructions. For example:

• 	 NARA officials ignored the provisions of the AFP which called for an examination of the
    final, finished deliverable (lOC) for Increment 1, the result being an inappropriate windfall to
    Lockheed Martin.

• 	 NARA officials changed the process for detennining the pools of money available for each of
    the six-month, period-based awards, i.e., they ignored the contract table detailing the available
    award fee pools for each period. While some change was necessary due to contract funding
    issues, NARA officials went further and changed from unique dollar amounts for each period
    to a simple equal division of money between all periods. This artificially inflated the first
    perfonnance period award.

• 	 Nine of 37 planned evaluation criteria to be used as basis for award computation for
    Increment 1 were never used by NARA officials. The accepted AFP used for all four
    perfonnance periods ofIncrement 1 only had detailed evaluation criteria for the first period.
    Written descriptions for eight rating categories, only applicable to subsequent periods, stated
    "to be detennined" or contained similar language. However, these aspects were never
    described or evaluated. A ninth category was described, but never rated.

• 	 Lockheed Martin was paid $63,136.00 as an award fee for "satisfactory" work in the third
    perfonnance period, when the written plan expressly states "satisfactory" work will not be
    rewarded.

• 	 Computations for award fees paid to Lockheed Martin could not be fully traced from the
    written work evaluations through to calculation of a dollar amount, in accordance with the
    AFP. The AFP states the award fees are supposed to be controlled by the Award Fee
    Detennination Reports (AFDRs) decided on by the contracting officer and the Program
    Director. However, the actual monetary amounts paid to the contractor never corresponded to
    the AFDRs, but instead they generally corresponded with another report generated prior to the
    AFDRs.

• 	 Without exception, actions required ofNARA officials were untimely, i.e., they did not
    provide timely evaluations, ratings or payments in accordance with the AFP. For example, in
    period two the Perfonnance Evaluation Board Report was 304 days late, and the notification
    ofthe award to Lockheed Martin was 325 days late. In another instance, NARA paid award
    fees for previous work after the contractor had been issued a Cure Notice for failing to make
    progress on the contract, i.e., NARA officials paid Lockheed Martin $980,482.00 in award
    fees after Lockheed Martin was issued a Cure Notice in July 2007 due to unsatisfactory work.
    While this money was for work perfonned earlier in the contract, the timing of the payments
    creates appearance issues. Untimely actions decrease the effectiveness of the incentive
    structure a CPAF contract is designed to create.

•   There was a general lack of attention to detail in the Award Fee program. In several
    instances, we found errors in the mechanism for calculating percentage scores from adjectival


                                             2
                       National Archives and Records Administration
   scores, mathematical errors, typos on contract modifications, conflicting documentation,
   missing dates on contract documents, etc. We also noted that there was no effective filing
   system for contract documents. The ERA Program Management Office (NHE) has no staff
   dedicated to maintaining the contract files. Instead, this has become a collateral duty for the
   contracting officer and the program director. With the time constraints placed on these high­
   level officials, the contract files for NARA's largest, high-priority program have not been
   effectively maintained.

NARA ERA program officials were asked for explanations about the foregoing conditions.
Responses ranged from a basic lack of resources (for the lack of a filing system) to more
complicated interpretations of the AFP (such as their claim "satisfactory" work should still be
rewarded if their calculations resulted in any percentage score above zero). However, their
responses failed to adequately address the concerns of this office.

It should also be noted the funds originally obligated to the Increment I award fee program, but
not distributed as award fees, were subsequently shifted to cover cost overruns in Increment 1 and
to fund the Increment 2, Executive Office of the President (EOP) System award fees. Our effort
did not include evaluating this shifting of funds with respect to fiscal law requirements.

Finally, because the AFP was designed to cover the award fee program for all Increments ofthe
ERA contract, the issues and concerns of how the award fees were managed in Increment 1 will
continue to have an effect on the contract in future years. For example, the AFP provisions for
Increment 1 were used to administer the award fee program for Increment 2, the EOP System.
Aside from the issues and errors noted above for the Increment 1 award fee program, it is not
known if the AFP is adequate to properly incentivize Lockheed Martin on EOP, or for any
subsequent Increments.

A CPAF contract provides an additional profit or fee amount that may be awarded, in whole or in
part, based upon periodic evaluations of ongoing contractor performance. The criteria and rating
plan should motivate the contractor to improve performance in the areas rated, but not at the
expense of at least minimum acceptable performance in all other areas. Good AFPs (a) provide
for evaluations of contractor performance levels, taking into consideration contributing
circumstances and contractor resourcefulness; (b) focus the contractor on areas of greatest
importance in order to motivate it to make the best possible use of company resources to improve
performance; (c) clearly communicate evaluation procedures and provide for effective, two-way
communication between contractor and government personnel responsible for evaluating
performance and making award fee determinations; (d) provide for an equitable and timely
evaluation process; (e) establish an effective organizational structure, commensurate with the
complexity and dollar value of the particular procurement, to administer the award fee provisions;
and (f) should be kept as simple as feasible; the simpler the plan, the more effective it is likely to
be. The objective should be a workable plan with a high probability of successful implementation.




                                             3
                       National Archives and Records Administration
The conditions discussed in this management letter create a lack of transparency and
accountability in the ERA Program. By February 15,2009, please submit an action plan to the
OIG describing how you plan to address the issues discussed in this management letter. If you
have any questions, or require additional information pertaining to the ERA award fee program,
please do not hesitate to contact me.




Inspector General


cc: NH (M. Morphy)




                                            4
                      National Archives and Records Administration
                                       SUPPLEMENTAL INFORMAlON

OIG Review Effort

On May 14, 2008, the Archivist of the United States testified to Congress concerning the award fee
program for the Electronic Records Archives (ERA). Specifically, the Archivist stated once he and his
senior staff were infonned in Mayor June of 2007 that the contractor was significantly behind schedule,
then no bonuses "went out ... despite the fact that these cost-plus contracts have been built in." Based
on infonnation derived by the OIG auditors, this representation appeared inconsistent with records
maintained by ERA Program officials.

Accordingly, the OIG initiated a review of the award fee program for the ERA contract with the
Lockheed Martin Corporation. This project started out as a quick review of the program to assess its
processes and detennine how much, and when, award fees were paid to the contractor for the period
relevant to the Archivist's testimony, which was Increment 1 of the contract. Increment 1 was the
original two-year period from the start of ERA development through achieving an Initial Operating
Capability for the ERA.! Our objectives were to (1) assess the general operation of the program, (2)
identify how award fee amounts were detennined and computed, and (3) compare the fees paid to the
process identified.

ERA Program Description

ERA is a computer-based tool intended to allow NARA to handle and preserve any type of electronic
record regardless of the computer program which created the record, or the fonnat the record is saved in.
ERA is also intended to pennit NARA to manage and monitor the records lifecycle for all records being
handled by NARA. One of the agency's largest programs, over $212 million has been appropriated to
ERA through fiscal year 2008. Full Operating Capability for the ERA is not expected to be realized
until March 2012, per program officials.

NARA ERA Development Contract Award Fee Process

To develop the ERA System, NARA entered into a cost-plus-award-fee (CPAF) contract, no. NAMA­
04-C-0007, with the Lockheed Martin Corporation. The contract was structured as a base contract with
several options which could be exercised in later years. Our review was limited to examining Option 1,
Increment 1. Under the CPAF arrangement, Lockheed Martin is paid its actual costs, plus overhead and
burden, without a set profit for work done. The contractor then has the opportunity to be rewarded for
excellent perfonnance with an award fee. According to the Federal Acquisition Regulation (FAR), Part
16.305, Cost-Plus-Award-Fee Contracts, award fees are "based upon a judgmental evaluation by the
Government, sufficient to provide motivation for excellence in contract perfonnance." For Increment 1
the award fee represents approximately nine percent of the total contract value.

Under NARA's contract with Lockheed Martin, there is a written Award Fee Plan (AFP) detailing the
procedure for detennining award fees. The plan was written by the contractor and then accepted by



1   Problems in the ERA program delayed completion ofIncrement 1 past the designed two-year timeframe.


                                                         5
                                   National Archives and Records Administration
NARA.2 The plan divides the entire contract into six-month periods to be evaluated for award fees, and
then each contract Increment has an award fee available for an overall evaluation ofthe contract
deliverable for that Increment (called the system performance award). For Increment 1 there were four
planned six-month periods, and the contract deliverable was Initial Operating Capability for the system.
Since award fees were only paid to Lockheed Martin for the first three six-month periods oflncrement
1, only those periods were examined in detail. For the fourth period, Lockheed Martin was awarded a
0%, $0 award fee.

According to the AFP, NARA experts rated the contractor's work performance in 37 categories called
"performance aspects." These ratings were then submitted to and evaluated by NARA's Performance
Evaluation Board which, in turn, submitted a report, called the Performance Evaluation Board Report
(PEBR), to the Program Director (PD) and Contracting Officer (CO). This PEBR condensed the 37
performance aspect ratings into three main categories: Performance, Schedule, and Cost. The PD and
CO were to consider this report, but it was up to them to make the final determination. This decision
was to be recorded on an Award Fee Determination Report (AFDR). Then, a contract modification
would be issued and Lockheed Martin would be paid its award fee. The plan called for the entire
process to be completed no later than 45 days after the end ofthe applicable six-month period.

The contractor's work performance was given both a descriptive (adjectival) rating and a percentage­
based rating. The adjectival ratings available (and their corresponding percentage ranges) were (a)
PoorlUnsatisfactory, (b) Satisfactory, (c) Good - 1% to 40%, (d) Very Good - 41 % to 80%, (e) and
Outstanding - 81 % to 100%. The plan specifically states the contractor was not to be rewarded for
"Satisfactory" or "Poor/ Unsatisfactory" work. The actual dollar value of an award fee was determined
by adding up weighted percentage scores for the three main categories and then multiplying this total
percentage score by the pool of money available for the particular award fee. The written plan gives
specific dollar values for the available award fee pools for each six-month period award and for the
system performance awards. In the written plan, none of the period or system performance award pools
are equal in dollar value. The government has the right to unilaterally make changes to the AFP, but
must give Lockheed Martin written notice 30 days prior to the start ofthe period the change is to take
effect.




2LM submitted several subsequent plans. However, NARA ERA officials stated the plan dated May 16, 2005 was the only
version ever accepted, and confIrmed this plan was used for all ofIncrement 1.


                                                      6
                                National Archives and Records Administration
